No. 20-7813

In the Supreme Court of the United States
RICHARD ALLEN BENSON, Petitioner,
v.
KEVIN CHAPPELL, WARDEN, Respondent.

CERTIFICATE OF SERVICE

I, Joshua A. Klein, a member of the Bar of this Court hereby certify that all
counsel have agreed to electronic service in lieu of hard-copy service, and that on
June 15, 2021, a copy of the Joint Stipulation to Dismiss in the above-entitled case
was electronically served on counsel for all parties, by email to:
Marcia A. Morrissey
11400 W. Olympic Blvd., Suite 1500
Los Angeles, CA 90064
morrisseyma@aol.com
(310) 399-3259
(Attorney for Petitioner)

John R. Grele
1000 Brannan St., Suite 400
San Francisco, CA 94103
jgrele@earthlink.net
(415) 665-8776
(Attorney for Petitioner)

I further certify that all parties required to be served have been served.
/s/ Joshua A. Klein
JOSHUA A. KLEIN, Deputy Solicitor General
Office of the Attorney General
1515 Clay Street, 20th Floor
P.O. Box 70550
Oakland, CA 94612-0550
joshua.klein@doj.ca.gov
Telephone: (510) 879-0756
Counsel for Respondent

